                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A11110073                                                                       Page 1 of 1



         OIG opened this file after finding plagiarism in a proposal 1 as part of a proactive review. We
         reviewed the other proposals submitted by the Prl and co-Pis, and found plagiarism in a second
         proposal submitted solely by the PI. We contacted the PI, who provided documents which stated she
         received permission from the authors of the source documents to use the text in her proposal. Given
         that she had permission from the authors and the de minimus amount of plagiarism, we sent a letter
         to the PI, reminding her to follow appropriate citation practices even with permission. As no further
         action is needed, this case is closed.




NSF OIG Form 2 (11102)
